HHS/OIG, Audit -Review of Undistributable Child Support Collections in Illinois From October
1, 1998, Through December 31, 2003(A-05-04-00039)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
Review of Undistributable
Child Support Collections in Illinois From October 1, 1998, Through December 31, 2003 (A-05-04-00039)
August 31, 2005
Complete
Text of Report is available in PDF format (402 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the State agency appropriately reported program income for
undistributable child support collections and interest earned on program funds.  We found the
State agency did not appropriately report program income for undistributable child support collections
totaling at least $1,652,204 ($1,090,454 Federal share) or the Title IV-D portion of Cook County outstanding
checks that met the States abandoned property law.  We were unable to determine the Title IV-D
portion of outstanding checks totaling $1,742,502 from the Cook County check register that should have
been reported as program income.  Although the State agency reported program income for interest
earned on program funds, it recalculated and made adjustments to the reported interest that understated
program income, thus overstating net costs by $7,005 ($4,623 Federal share).
We recommended that the State agency: (1) make the appropriate program income adjustment for Title
IV-D undistributable collections estimated to be at least $1,652,204 ($1,090,454 Federal share); (2)
work with OCSE to negotiate the Federal share of program income for Cook County outstanding checks
totaling $1,742,502 that may be attributable to Title IV-D undistributable collections; (3) implement
adequate policies and procedures and provide training to personnel responsible for preparing the OCSE-34A
and OCSE-396A; (4) make the appropriate program income adjustment of $7,005 ($4,623 Federal share)
for the understated interest earned; and (5) obtain the OCSE regional representatives approval for
any revised methodology used to determine and allocate interest earned on Child Support Enforcement
program funds.  In its response to our draft report, the State agency concurred with all of our
recommendations except for working with OCSE to negotiate the Federal share of program income for Cook
County outstanding checks totaling $1.7 million.  The State agency believed that the specific
program associated with these checks could not be definitely determined and that, therefore, none of
the $1.7 million in outstanding checks could be attributed to any Title IV-D child support case.  We
continue to believe that the State agency should work with OCSE to determine the Federal share of program
income that may be attributable to Title IV-D undistributable collections.